No.

IN THE
SUPREME COURT OF THE UNITED STATES

Kamme O

— PETITIONER

(Your Name)
VS.

Texas A&M University
Texas A&M University System — RESPONDENT(S)
PROOF OF SERVICE
Kamme O
March 15

_________________ , do swear or declare that on this date,
, 20 21 ? as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Yvonne D. Bennett, Assistant Attorney General, General Lititgation Division
P.O. Box 12548, Capital Station
Austin, Texas 78711-2548
I declare under penalty of perjury that the foregoing is tirue and correct.
Executed on

March 15 20^1

(Signatur

